OIG Investigative Reports, Two Former Orleans Parish School Board Employees Sentenced To Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Press Releases
February 20, 2008
For Immediate Release
U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans, Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
TWO FORMER ORLEANS PARISH SCHOOL BOARD EMPLOYEES SENTENCED TO FEDERAL PRISON
DRENA CLAY, age 42, a resident of New Orleans, Louisiana,
and DEBRA HARRISON, age 46, a resident of New Orleans, Louisiana
were sentenced to thirty (30) months imprisonment and forty-one (41) months
imprisonment respectively, by U. S. District Judge Stanwood R. Duval, Jr. today.
CLAY and HARRISON had been convicted after
a seven day jury trial of conspiracy to commit extortion, extortion, conspiracy
to commit program fraud and program fraud. HARRISON was also
convicted of lying to the FBI on two occasions. Another defendant convicted
of lying to the FBI in the trial, Walter Tardy, age 41, is scheduled for sentencing
on April 16, 2008.
These convictions are a part of the wide ranging Orleans Parish School Board
corruption probe which has netted twenty-seven convictions, including former
School Board President, Ellenese Brooks-Simms and insurance broker Lillian Smith-Haydel.
This matter arose from an investigation into fraudulently inflated class coverage
hours at Fannie C. Williams Middle School in Eastern New Orleans. HARRISON,
the school secretary was in charge of the system by which classes of absent
teachers were covered by other teachers present that day, during their free
period. However, the jury found that the system was corrupted by HARRISON
and CLAY by demanding kickbacks from teachers to falsely inflate
the class coverage hours.
Two other defendants, John Baker, age 47 and Trynitha Fulton, age 30, pled
guilty as charged and testified in the October jury trial. Baker and Fulton
are set for sentencing on June 11, 2008.
HARRISON, who faced a statutory maximum of 55 years, and
whose United States sentencing guideline range was 41 - 51 months, not only
was sentenced to 41 months but also was ordered to pay a proportional share
of $32,750.00 in restitution to the Orleans Parish School Board, and three years
supervised release after her release from jail.
CLAY, who faced a statutory maximum of 55 years, and whose
United States sentencing guideline range was 30-37 months, not only was sentenced
to 30 months but also was ordered to pay a proportional share of $32,750.00
in restitution to the Orleans Parish School Board, as well as three years supervised
release.
The Orleans Parish School Systems investigation was a joint investigative
effort of the FBI, IRS Criminal Investigations Division, and the Department
of Education Office of the Inspector General. This case prosecuted by Assistant
U.S. Attorneys Carter K. D. Guice, Jr., Daniel Friel and Richard Rose, of the
District of Rhode Island.
Top
Printable view
Share this page
Last Modified: 02/25/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov